              The Audit Trail System for Detecting Improper
                Activities on Modernized Systems Is Not
                               Functioning

                                    August 2004

                       Reference Number: 2004-20-135




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    August 18, 2004



       MEMORANDUM FOR CHIEF, MISSION ASSURANCE


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - The Audit Trail System for Detecting
                                    Improper Activities on Modernized Systems Is Not Functioning
                                    (Audit # 200420026)


       This report represents the results of our review of the Internal Revenue Service’s (IRS)
       audit trail system for modernized projects. The overall objective of this review was to
       assess the availability of audit trail data used to monitor computer activity on the IRS’
       modernized systems.
       In summary, the Security Audit and Analysis System (SAAS) represents the IRS’
       solution for audit trail collection and review for both modernized computer systems and
       the Integrated Data Retrieval System.1 The PRIME contractor2 developed the SAAS as
       part of the IRS’ modernization efforts. Conceptually, the SAAS is intended to gather
       audit trail information from IRS systems and store this information in a central database
       that IRS management, computer incident response team members, and Treasury
       Inspector General for Tax Administration (TIGTA) investigators could access. The
       SAAS is intended to enable these users to generate reports and create custom queries
       to detect unauthorized activities and facilitate the reconstruction of events if
       unauthorized activities occurred.




       1
         The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
       taxpayer’s account records.
       2
         Computer Sciences Corporation serves as the PRIME contractor to design and develop modernization programs
       and projects for the IRS. The Business Systems Modernization Office within the IRS coordinates and oversees the
       work of the PRIME contractor.
                                                         2

Currently, the SAAS contains audit trail information from the IRS’ e-Services3 and
Internet Refund Fact of Filing4 modernized applications. Additionally, it contains data
from the Audit Trail Lead Analysis System used by the TIGTA to detect and investigate
unauthorized accesses to taxpayer information (UNAX)5 by IRS employees.
However, software performance and functionality problems with the SAAS have
prevented users from accessing the SAAS data once it has been collected. In
November 2002, the PRIME contractor delivered the SAAS to the IRS. The IRS was
aware that the SAAS did not meet IRS requirements but formally accepted the system
with the caveat that the system deficiencies were to be addressed. To date, the
problems have not been fully resolved. The IRS should not have accepted the SAAS,
knowing that the system did not meet all the software performance and functionality
requirements of its users.
As a result, the ability to detect improper activity on IRS computer systems has been
diminished. Specifically:
•   IRS business units cannot use the SAAS for identifying questionable activities on
    modernized applications.
•   The IRS’ Computer Security Incident Response Center cannot use the SAAS for
    identifying unauthorized intrusions.
•   The TIGTA cannot use the SAAS for identifying UNAX violations.
Business unit managers of modernized applications are primarily responsible for
identifying questionable activities on their applications. However, operating procedures
for reviewing SAAS data for modernized applications have not been developed. The
Office of Mission Assurance, as the business leader of the SAAS, did not actively assist
and facilitate requirements until January 2004. As a result, even if the SAAS were
functioning as intended, the IRS would not be able to effectively review audit trail data.
Without a functioning audit trail process, the IRS’ ability to detect unauthorized activities
on its current modernized systems is lessened. Future modernization applications will
rely solely on the audit trail functions provided through the SAAS. The inability to detect
unauthorized activities is a significant security risk that should weigh heavily on whether
future modernization applications should be accredited and implemented. Not having
operating procedures, problems with software performance and functionality, and
delays in addressing software problems collectively indicate that the IRS has not
devoted sufficient attention to the review of audit trails.



3
  Provides electronic products and services for specific customer segments (e.g., application for preparer tax
identification number and registration for electronic return originators).
4
  Provides refund status information to taxpayers with Internet access and guidance to the taxpayers about what steps
to follow to resolve issues with their refunds.
5
  Unauthorized access and inspection of returns and return information as established in the Taxpayer Browsing
Protection Act, 26 U.S.C.A. §§ 7213, 7213A, 7431 (West Supp. 2003).
                                             3

We recommended that the Chief, Mission Assurance, ensure the SAAS performance
and functionality requirements are adequately tested and implemented to perform query
and report generation. Also, SAAS operational procedures (e.g., who will review audit
trails, what information is needed, and for what purpose) should be fully developed and
finalized so that business units can conduct audit trail reviews of system and user
activities in modernized applications. In addition, periodic compliance reviews should
be conducted to ensure business units carry out their roles and responsibilities to review
audit trails, and alternatives should be developed for reviewing audit trails for
modernized applications in the event the SAAS deficiencies cannot be corrected.
Management’s Response: Management concurred with three of our recommendations
and partially concurred with one recommendation. The Office of Mission Assurance will
participate in testing the SAAS to help ensure that audit trail information is available and
retrievable to detect unauthorized activities, provide operating procedures to help
business owners analyze SAAS information, monitor compliance with operating
procedures, and enhance its certification procedures for systems and applications to
ensure that audit trail procedures are available.
Management partially agreed with our recommendation to develop alternatives for
modernized applications audit trails in the event that SAAS deficiencies cannot be
corrected. The IRS is committed to ensuring that the SAAS contains the necessary
storage and processing capability to allow users to retrieve and analyze information.
However, if necessary, the IRS will consider alternative approaches for identifying
unauthorized access and intrusion detection for modernization applications that may not
contain taxpayer information. Management’s complete response to the draft report is
included as Appendix V.
Office of Audit Comment: We are hopeful that the IRS meets its new goal for making
the SAAS functional by October 2004. However, if delays persist, we would encourage
the IRS to begin looking for alternatives to the SAAS. While we still believe our
recommendation is worthwhile, we do not intend to elevate our disagreement
concerning it to the Department of the Treasury for resolution.
Although the Chief, Mission Assurance, agreed with most of our recommendations, the
response stated that the SAAS met all defined requirements and passed all tests. As
we noted in the report, the IRS accepted the SAAS in November 2002, although it was
aware that reports for detecting unauthorized access could not be generated in a
production environment. Later in the response, the Chief, Mission Assurance,
recognized that the SAAS is not expected to be functional until October 2004.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                     The Audit Trail System for Detecting Improper Activities on
                              Modernized Systems Is Not Functioning




                                                Table of Contents


Background ............................................................................................... Page 1
The Security Audit and Analysis System Was Accepted Although
It Did Not Meet Performance Requirements.............................................. Page 2
         Recommendations 1 and 2: ............................................................ Page 5

Procedures for Reviewing Audit Trails on the Security Audit and
Analysis System Have Not Been Developed............................................. Page 6
         Recommendations 3 and 4: ................................................. Page 7

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 8
Appendix II – Major Contributors to This Report........................................ Page 9
Appendix III – Report Distribution List ....................................................... Page 10
Appendix IV – Outcome Measures ............................................................ Page 11
Appendix V – Management’s Response to the Draft Report .................... Page 12
             The Audit Trail System for Detecting Improper Activities on
                      Modernized Systems Is Not Functioning

                                Even the best controls designed to prevent improper
Background
                                computer activity can be circumvented with the proper
                                expertise. Hackers, and particularly disgruntled employees
                                and contractors who already have access to a system, may
                                attempt to circumvent the Internal Revenue Service (IRS)
                                controls to gain access to sensitive information or to
                                vandalize computer data and processing. To help minimize
                                these risks, Federal Government agencies are required to run
                                and review audit trails routinely to detect improper activity.
                                The Department of the Treasury procedures require that
                                audit trails be sufficient in detail to facilitate the
                                reconstruction of events if unauthorized activity or a
                                malfunction occurs or is suspected. These procedures also
                                state that designated personnel must review audit trails at
                                least weekly for systems that contain sensitive information.
                                The IRS’ procedures require that, at a minimum, audit trails
                                must include sufficient information to establish what events
                                occurred, when the events occurred, and who (or what)
                                caused them.
                                Conceptually, the Security Audit and Analysis
                                System (SAAS) was intended to meet the IRS’ audit trail
                                needs for both modernized computer systems and the
                                Integrated Data Retrieval System (IDRS).1 The SAAS was
                                to collect key information necessary to detect improper
                                activities and to reconstruct events for potential criminal
                                investigations and store it in a central database warehouse so
                                that authorized users could generate reports and create
                                custom queries.
                                The PRIME contractor2 developed the SAAS for the IRS.
                                The intended users of the SAAS include:
                                •   IRS management to review questionable activities on its
                                    systems.
                                •   The IRS’ Computer Security Incident Response Center
                                    (CSIRC) to detect and respond to computer security

                                1
                                  IRS computer system capable of retrieving or updating stored
                                information; it works in conjunction with a taxpayer’s account records.
                                2
                                  Computer Sciences Corporation serves as the PRIME contractor to
                                design and develop modernization programs and projects for the IRS.
                                The Business Systems Modernization Office within the IRS coordinates
                                and oversees the work of the PRIME contractor.
                                                                                                Page 1
               The Audit Trail System for Detecting Improper Activities on
                        Modernized Systems Is Not Functioning

                                      incidents targeting the IRS’ enterprise information
                                      technology assets.
                                  •   The Treasury Inspector General for Tax Administration
                                      (TIGTA) to detect and investigate unauthorized accesses
                                      to taxpayer information (UNAX)3 by IRS employees.
                                      Although the TIGTA is a user of the SAAS system, IRS
                                      management is primarily responsible for the review and
                                      analysis of audit trail information.
                                  This review was performed in the Offices of the
                                  Chief Information Officer and the Chief, Mission
                                  Assurance, at the IRS National Headquarters and in
                                  New Carrollton, Maryland, during the period
                                  December 2003 through March 2004. The audit was
                                  conducted in accordance with Government Auditing
                                  Standards. Detailed information on our audit objective,
                                  scope, and methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  In November 2002, the PRIME contractor delivered the
The Security Audit and Analysis
                                  SAAS to the IRS. The SAAS is collecting and storing audit
System Was Accepted Although
                                  trail information from some IRS applications into the
It Did Not Meet Performance
                                  database warehouse.
Requirements
                                  A number of these records are from the Audit Trail Lead
                                  Analysis System (ATLAS) that obtains and analyzes audit
                                  trail information from the IDRS. The SAAS also contains
                                  audit trail information from the IRS’ e-Services4 and
                                  Internet Refund Fact of Filing (IRFoF)5 modernized
                                  applications and audit trails from various security devices
                                  (e.g., firewalls and intrusion detection systems). As of
                                  January 2004, the database warehouse contained an
                                  estimated 9 billion records.



                                  3
                                    Unauthorized access and inspection of returns and return information
                                  as established in the Taxpayer Browsing Protection Act, 26 U.S.C.A.
                                  §§ 7213, 7213A, 7431 (West Supp. 2003).
                                  4
                                    Provides electronic products and services for specific customer
                                  segments (e.g., application for preparer tax identification number and
                                  registration for electronic return originators).
                                  5
                                    Provides refund status information to taxpayers with Internet access
                                  and guidance to the taxpayers about what steps to follow to resolve
                                  issues with their refunds.
                                                                                                  Page 2
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning

                   However, none of the users can query the information and
                   generate reports because of SAAS software performance
                   and functionality problems. The IRS was aware that the
                   SAAS did not meet IRS requirements but formally accepted
                   the system with the caveat that the system deficiencies were
                   to be addressed. Specifically, the IRS noted that the SAAS
                   could not yet produce reports currently available in the
                   ATLAS and that query response times would have to match
                   the ATLAS response times. The IRS should not have
                   accepted the SAAS, knowing that the system did not meet
                   all the software performance and functionality requirements
                   of its users.
                   The functionality and software performance problems of the
                   SAAS prevent the IRS business units from using it for
                   identifying questionable activities on modernized
                   applications.6 New applications such as e-Services and
                   IRFoF are highly sensitive since the applications will allow
                   taxpayers and practitioners access to tax account
                   information. Without a review of audit trail data, suspicious
                   activities could go undetected on these systems.
                   Future modernization applications will also rely on the audit
                   trail functions provided through the SAAS. Not having an
                   effective audit trail review process is a significant security
                   weakness that should weigh heavily on whether to accredit
                   future modernization applications. Examples of
                   applications that will provide key tax administration
                   processes in the future include the Customer Account Data
                   Engine,7 Custodial Accounting Project,8 and the Integrated
                   Financial System.9
                   In addition, the functionality and software problems of the
                   SAAS prevent the CSIRC from using it for identifying

                   6
                     The IRS has hundreds of legacy systems where little has been done in
                   the past to identify suspicious activities by reviewing audit trail data.
                   Audit trail data from these systems has not been provided to the SAAS,
                   and the IRS has no plans to do so.
                   7
                     Intended to provide an online modernized data infrastructure to house
                   authoritative taxpayer account and return information.
                   8
                     Intended to provide the IRS a data warehouse of detailed taxpayer
                   account information used for analysis and financial reporting.
                   9
                     Intended to integrate the majority of IRS’ internal financial
                   management processes to better budget, plan, track, report, and manage
                   finances.
                                                                                     Page 3
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning

                   unauthorized intrusions. The CSIRC is responsible for
                   identifying unauthorized intrusions into the IRS’ computer
                   system. Currently, it carries out this responsibility by
                   reviewing audit trails from various systems and security
                   devices.
                   To enhance its ability to detect unauthorized intrusions, the
                   CSIRC had planned to store intrusion detection system logs
                   from multiple locations on the SAAS. However,
                   functionality and software performance problems prevent
                   the CSIRC from querying the intrusion detection data on the
                   SAAS.
                   The PRIME contractor was not aware of this problem until
                   almost a year after it delivered the SAAS because the
                   CSIRC had not submitted a help-desk ticket describing the
                   problems in accessing the database warehouse. Apparently,
                   the CSIRC had not been using the SAAS since the
                   November 2002 system delivery date.
                   The SAAS software performance and functionality
                   problems also prevent the TIGTA from using the SAAS for
                   identifying UNAX violations. The ATLAS was developed
                   to obtain and analyze audit trail information from the IRS’
                   most used legacy system (IDRS) for updating and
                   maintaining taxpayer accounts. The TIGTA’s Office of
                   Investigations (OI) is the primary user of the ATLAS and
                   uses it to identify potential unauthorized accesses of
                   taxpayer information by IRS employees. Once the SAAS
                   became functional, the IRS had planned to discontinue its
                   use of the ATLAS.
                   However, the ATLAS is aging and, in the interim,
                   significant funds must be expended to keep the system
                   operational until the SAAS can become functional. The IRS
                   contracted for hardware maintenance support covering
                   Fiscal Years 2004 through 2006 for the ATLAS totaling
                   approximately $584,000. Additionally, the IRS has
                   allocated 2 employees in its spending plans for Fiscal
                   Years 2004 and 2005, representing approximately $400,000
                   in labor costs, to maintain the ATLAS (see Appendix IV for
                   details on these costs). If the ATLAS fails, the TIGTA
                   would lose its primary system for identifying unauthorized
                   accesses by IRS employees. However, once the SAAS

                                                                         Page 4
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning

                   becomes operational, the resources expended to maintain
                   the ATLAS can be used to support other IRS initiatives.
                   Since the SAAS was accepted and deployed by the IRS, the
                   TIGTA OI, with strong support from the Office of Mission
                   Assurance, has continued to report its inability to use the
                   SAAS. Numerous meetings have since been held with the
                   PRIME contractor and the IRS to discuss this issue.

                   Recommendations

                   The Chief, Mission Assurance, should ensure:
                   1. The SAAS performance and functionality requirements
                      are adequately tested and implemented so that the IRS
                      and the TIGTA can perform queries and generate audit
                      trail reports.
                   Management’s Response: Management agreed with this
                   recommendation. The IRS and the PRIME contractor have
                   developed a schedule that includes requirements for testing
                   and evaluating audit trail capabilities for the IDRS and
                   modernized applications. Testing for modernized
                   application audit trails is scheduled to begin in August 2004
                   and be completed by October 31, 2004. The Office of
                   Mission Assurance will participate in the testing to help
                   ensure that users can access and retrieve audit trail
                   information.
                   2. Alternatives are developed for reviewing audit trails for
                      modernized applications in the event the SAAS
                      deficiencies cannot be corrected.
                   Management’s Response: Management partially agreed
                   with our recommendation. The IRS maintained it has
                   conducted sufficient testing to accept that the current SAAS
                   approach is an effective approach for supporting Security
                   and Business Organization requirements for identifying
                   unauthorized access and intrusion detection. However, if
                   necessary, management will consider alternative approaches
                   for reviewing modernized applications that do not contain
                   taxpayer information. The IRS is ready to commit
                   additional resources to ensure the success of the SAAS.
                   Office of Audit Comment: We are hopeful that the IRS
                   meets its new goal for making the SAAS functional by
                                                                         Page 5
                  The Audit Trail System for Detecting Improper Activities on
                           Modernized Systems Is Not Functioning

                                     October 2004. However, if delays persist, we would
                                     encourage the IRS to begin looking for alternatives to the
                                     SAAS.
                                     To date, procedures for audit trail reviews using the SAAS
Procedures for Reviewing Audit
                                     have not been finalized beyond the general security policies,
Trails on the Security Audit and
                                     roles, and responsibilities. In addition, specific roles and
Analysis System Have Not Been
                                     responsibilities (i.e., who will use the application, for what
Developed
                                     information, and for what purpose) have not yet been
                                     established.
                                     At the time the SAAS was deployed, the PRIME contractor
                                     advised the IRS that many of the procedures for using the
                                     SAAS were not clear. The transition plan provided by the
                                     PRIME contractor identified necessary steps the IRS needed
                                     to take.
                                     One step called for the IRS to “review, revise/establish
                                     security processes, policies and procedures.” The IRS
                                     responded, “… security policies are in place” and provided
                                     no more support for this effort. The PRIME contractor also
                                     indicated that the IRS’ current policies and procedures did
                                     not provide the details necessary to adequately analyze audit
                                     trails.
                                     The PRIME contractor also indicated that ownership
                                     responsibilities for SAAS functions such as collecting audit
                                     trail data, generating and reviewing security reports, and
                                     determining who should have access to the SAAS had not
                                     been defined.
                                     Business unit managers of modernized applications are
                                     primarily responsible for identifying questionable activities
                                     on their applications. However, to ensure consistency and
                                     that security requirements are met, the Office of Mission
                                     Assurance (the business leader of the SAAS) should take an
                                     active role by facilitating requirements analysis and
                                     definition, and defining policy, roles, and responsibilities.
                                     As a result of the delays in defining operating procedures,
                                     the IRS business units still will not be in a position to
                                     effectively review audit trails, even if the SAAS
                                     performance issues are fully resolved. During our review,
                                     in January 2004, the Office of Mission Assurance provided
                                     additional procedures for certain manager reports and

                                                                                            Page 6
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning

                   acknowledged that additional procedures for modernized
                   applications still need to be defined.
                   Not having operating procedures, problems with software
                   performance and functionality, and delays in addressing
                   software problems collectively indicate that the IRS has not
                   devoted sufficient attention to the review of audit trails.
                   Consequently, improper activities on IRS modernized
                   applications could go undetected.

                   Recommendations

                   The Chief, Mission Assurance, should ensure:
                   3. The SAAS operating procedures (e.g., who will review
                      audit trails, what information is needed, and for what
                      purpose) are fully developed and finalized so that
                      business units can conduct effective and efficient audit
                      trail reviews of modernized applications.
                   Management’s Response: IRS management agreed with
                   this recommendation. The Office of Mission Assurance is
                   implementing a two-phased plan to provide business
                   organizations and security personnel access to modernized
                   applications audit trail data through the SAAS and will
                   identify procedures in conjunction with business owners to
                   help ensure that unauthorized activities are detected. The
                   Office of Mission Assurance will also enhance its
                   certification procedures for systems and applications to
                   ensure that audit trail procedures are available.
                   4. Periodic compliance reviews are conducted once the
                      SAAS is functional to ensure the CSIRC and business
                      unit managers carry out their roles and responsibilities to
                      review audit trails.
                   Management’s Response: IRS management agreed with
                   this recommendation. The Office of Mission Assurance will
                   initiate compliance reviews on modernized applications
                   within 120 days of their initial operating capability dates.
                   According to current schedules, these reviews are scheduled
                   to begin in March 2005.




                                                                          Page 7
                  The Audit Trail System for Detecting Improper Activities on
                           Modernized Systems Is Not Functioning

                                                                                                  Appendix I


                         Detailed Objective, Scope, and Methodology

Our overall objective was to assess the availability of audit trail data used to monitor computer
activity on the Internal Revenue Service’s (IRS) modernized systems. To accomplish the
objective, we:
I.      Determined whether the IRS had a system in place to monitor modernized systems and
        whether the system collected sufficient data.
        A. Reviewed and evaluated the IRS policies, procedures, and documentation, including
           documentation prepared by the PRIME contractor1 applicable to the Security Audit
           and Analysis System (SAAS).2
        B. Identified information that should be captured in audit trails and determined if
           modernized systems currently in production were collecting the appropriate audit trail
           data.
        C. Determined whether any mitigating controls were in place for audit trails on
           modernized systems.
II.     Determined whether audit trails were being monitored to detect improper activities by
        employees, contractors, and registered/unregistered users.
        A. Interviewed the SAAS project manager and planned users of the SAAS and identified
           user efforts to use the SAAS for its intended purposes.
        B. Determined whether modernized audit trails were being reviewed using the SAAS
           and whether any improper activity was identified using the system.




1
  Computer Sciences Corporation serves as the PRIME contractor to design and develop modernization programs
and projects for the IRS. The Business Systems Modernization Office within the IRS coordinates and oversees the
work of the PRIME contractor.
2
  Conceptually, the SAAS was intended to meet the IRS’ audit trail needs for both modernized computer systems
and the Integrated Data Retrieval System (the IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer’s account records).




                                                                                                        Page 8
               The Audit Trail System for Detecting Improper Activities on
                        Modernized Systems Is Not Functioning

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen R. Mullins, Director
Theodore W. Grolimund, Audit Manager
David J. Brown, Senior Auditor
Anthony D. Knox, Senior Auditor
Louis Lee, Senior Auditor
George L. Franklin, Auditor




                                                                                         Page 9
              The Audit Trail System for Detecting Improper Activities on
                       Modernized Systems Is Not Functioning

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CIO
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Internal Management Systems OS:CIO:I:B:IM
Acting Director, Portfolio Management OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Mission Assurance OS:MA
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight and Coordination Office OS:CIO:R:PM




                                                                                  Page 10
                  The Audit Trail System for Detecting Improper Activities on
                           Modernized Systems Is Not Functioning

                                                                                                Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; $584,372 (see page 2).
Methodology Used to Measure the Reported Benefit:
During our review we noted that the Audit Lead Analysis System (ATLAS) was to be replaced
by the Security Audit and Analysis System (SAAS). Since the SAAS is not functioning as
intended, the Internal Revenue Service (IRS) has had to contract1 for hardware maintenance
support covering Fiscal Years 2004 through 2006 for the ATLAS.
ATLAS Hardware Maintenance Costs:
        Fiscal Year 2004          $181,770
        Fiscal Year 2005          $194,494
        Fiscal Year 2006          $208,108
        Total                     $584,372
Once the SAAS becomes operational, the funds expended to maintain the ATLAS could be used
to support other IRS initiatives.
Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $400,000 (see page 2).
Methodology Used to Measure the Reported Benefit:
During our review we noted that the ATLAS was to be replaced by the SAAS. Since the SAAS
is not functioning as intended, the IRS has allocated 2 full-time equivalent (FTE)2 employees
($200,000 in labor costs) in its spending plans for Fiscal Years 2004 and 2005 to continue the
support of the ATLAS. This represents a total of $400,000 ($200,000 * 2) in labor costs for the
2 years. Once the SAAS becomes operational, the employee resources expended to maintain the
ATLAS could potentially be used to support other IRS initiatives.



1
 Source: IRS Contract Number NK20188090.
2
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For example, in Fiscal Year 2004, 1 FTE is equal to 2,096 staff hours.
                                                                                                        Page 11
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning

                                                              Appendix V


     Management’s Response to the Draft Report




                                                                  Page 12
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning




                                                              Page 13
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning




                                                              Page 14
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning




                                                              Page 15
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning




                                                              Page 16
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning




                                                              Page 17
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning




                                                              Page 18
The Audit Trail System for Detecting Improper Activities on
         Modernized Systems Is Not Functioning




                                                              Page 19
